           U.S. Department of
                                                         Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Consolidated Financial Statements                 Date:    January 27, 2003
           for Fiscal Years 2002 and 2001, DOT
           FI-2003-018

  From:    Kenneth M. Mead                                                  Reply To
           Inspector General                                                Attn. of:   Meche:x61496

    To:    The Secretary

           I respectfully submit the Office of Inspector General (OIG) report on the Department of
           Transportation (DOT) Consolidated Financial Statements for Fiscal Years (FY) 2002
           and 2001. For the first time, the DOT Consolidated Financial Statements include the
           Transportation Security Administration (TSA), which was established on
           November 19, 2001. TSA and the U. S. Coast Guard will transfer to the Department of
           Homeland Security in March 2003. This report is required by the Chief Financial
           Officers Act of 1990, as amended by the Government Management Reform Act of
           1994.

           This report presents our unqualified opinion on the DOT Consolidated Balance Sheet,
           Statement of Net Cost, Statement of Changes in Net Position, and Statement of
           Financing, and the Combined Statement of Budgetary Resources as of, and for the
           years ended, September 30, 2002, and September 30, 2001. The DOT Consolidated
           Financial Statements show assets of about $84 billion, liabilities of $42 billion,
           operating costs of $63 billion, and total budgetary resources of $105 billion.

           The unqualified, or "clean," opinion did not come without extraordinary effort by DOT
           employees and the auditors. Early in FY 2002, the DOT Chief Financial Officer
           recognized that the creation of TSA could cause significant challenges for preparing
           and auditing the DOT Consolidated Financial Statements. In addition to the extra work
           needed to start up a new agency, DOT also had a major financial management initiative
           underway at the same time to prepare its larger and more complex agencies to
           implement the new DOT accounting system, Delphi.

           This report identifies significant financial issues that demonstrate the need to fully
           implement automated systems and internal controls to avoid the extra manual efforts
           every year to prepare financial statements. However, with the leadership of DOT
           senior management, especially the DOT Chief Financial Officer and Deputy Chief
           Financial Officer, the Federal Transit Administrator, and the TSA Chief Financial
Officer, and the hard work by DOT employees to address these issues timely, the clean
opinion was attained.

We identified the following material weaknesses affecting the DOT Consolidated
Financial Statements.

   • Last year, we reported that a headquarters account created by former Federal
     Transit Administration (FTA) employees existed to hold obligations which were
     adjusted using inappropriate accounting procedures. This account had a
     negative $77 million obligation balance as of September 30, 2001. While
     addressing this issue during FY 2002, FTA discovered that this account
     contained the remaining balance of what at one time was a $562 million
     overobligation that had occurred 19 years earlier. After a thorough review of its
     financial records, FTA found that the remaining balance of the FY 1984
     overobligation was about $29 million as of September 30, 2002.

      Rather than report the Antideficiency Act violation in FY 1984, former FTA
      employees engaged in inappropriate actions, such as (1) using funds from other
      appropriations, some of which had expired for obligation purposes;
      (2) maintaining records outside the accounting system; and (3) manipulating
      financial information on reports to Treasury and the Office of Management and
      Budget (OMB) to prevent detection. Other internal control weaknesses also
      resulted in adjustments of about $8 billion to correct the FY 2002 Consolidated
      Financial Statements. Corrective actions have been taken and are in process.

   • DOT has 25 major financial systems. OMB Circular A-130 requires agencies to
     secure computer systems commensurate with the risk resulting from the loss,
     misuse, unauthorized access to, or modification of, the systems. Only 10 of the
     25 major financial application systems have been certified as adequately
     secured. Unauthorized access to any DOT information system could jeopardize
     the integrity of financial information systems. DOT also needs to enhance its
     network security and complete background checks on contractor personnel
     working on DOT information systems.            In separate reports, we made
     recommendations to improve computer security and controls.

   • Use of cost-reimbursable contracts is more risky for the Government because
     contractors have little incentive to control costs.      The Federal Aviation
     Administration (FAA) had serious deficiencies in controls over cost-reimbursable
     contracts. For contracts totaling $2 billion, FAA did not obtain incurred-cost
     audits as required. FAA also had a backlog of about 1,400 contracts totaling
     $6 billion that were not closed timely. We made recommendations in a separate
     report to strengthen FAA processes.
   • TSA obligated about $1 billion to contract with 74 private companies already
     providing passenger security screening services for air carriers. Although TSA
     contract rates were to be based on actual costs to air carriers, we found six
     contractors increased billing rates from 58 to 97 percent above those charged to air
     carriers, and TSA initially was performing virtually no monitoring. We made
     recommendations for corrective actions in a July 2002 memorandum and in a
     separate report to be issued in February 2003. TSA has hired independent
     contractors to audit, administer, and monitor these contracts.

   • Under contract with OIG, KPMG LLP (KPMG) found that TSA did not have
     sufficient personnel or established policies and procedures to ensure accurate
     reporting of amounts on its financial statements. For example, expenses and
     liabilities totaling about $1 billion were understated. TSA corrected its accounting
     records and reported appropriate amounts in its financial statements.

We also identified the following key issues involving internal control weaknesses and
compliance with laws and regulations. While they are important, they did not affect
our audit opinion.

   • Last year, we reported significant deficiencies in accounting for FAA property.
     Under contract with OIG, KPMG found that FAA did not adhere to established
     policies and procedures concerning property reporting during FY 2002, and made
     recommendations for improvement in a separate report. FAA needs to integrate
     its property system with DOT's new accounting system, Delphi. FAA plans to
     integrate its property and financial systems by October 2003.

   • FAA overstated its legal liabilities by about $514 million. FAA corrected its
     estimate and adjusted its financial statements. KPMG made recommendations in a
     separate report to improve communication and coordination within FAA.

   • Delphi has been implemented in 10 of DOT's smaller agencies, but the computer
     system lacked basic system controls and contained nine high vulnerabilities in
     system security. DOT also needs better plans to continue operations in case of
     system failure or catastrophic events. DOT is working to resolve these issues.

   • An interface deficiency existed between the Federal Highway Administration
     (FHWA) grants management system and the existing DOT accounting system,
     which underreported valid obligations by about $388 million. FHWA plans to
     resolve this interface deficiency during the Delphi implementation process.

   • DOT was not in compliance with the Federal Financial Management
     Improvement Act of 1996 because the DOT accounting system did not
     (1) provide the data necessary for preparing the DOT Consolidated Financial
      Statements, (2) comply with the U.S. Government standard general ledger, and
      (3) comply with requirements for implementing managerial cost accounting
      standards. DOT also needs to enhance computer security. DOT plans to have
      compliant and secure financial systems by September 2004.

   • DOT spent about $37 million obtained from Treasury miscellaneous receipts
     accounts between FYs 1998 and 2001, rather than using appropriated funds.
     DOT had no authority to spend Treasury's money. When the transactions were
     corrected during FY 2002, FHWA and the Office of the Secretary prior year
     appropriations were overobligated by about $5 million. We recommended
     corrective actions in a separate report.

   • DOT did not confirm about $1.9 billion of intragovernmental balances with its
     trading partners. The General Accounting Office (GAO) reported this area as
     one impediment to an opinion on the Financial Report of the United States
     Government. The unreconciled difference among Federal entities for FY 2001
     was $21 billion. Although our audit tests did not identify significant differences,
     DOT needs to do its part to resolve this Governmentwide issue.

   • The performance measures presented in the Management Discussion and
     Analysis did not provide information about the cost-effectiveness of programs
     nor relate to the Statement of Net Cost. Of the 64 performance measures, 14
     were based on FY 2001 rather than FY 2002 performance data. None of the
     measures was linked to the cost of achieving targeted results.

   • DOT distributed its operating costs into four components on the Consolidated
     Statement of Net Cost: Surface, Air, Maritime, and Cross-Cutting
     Transportation Programs. This presentation inappropriately combined agencies
     and programs with separate and distinct goals.

This report includes one new recommendation to confirm intragovernmental balances.
DOT and its agencies have ongoing corrective actions to address these internal control
and compliance issues. A draft of this report was provided to the DOT Chief Financial
Officer on January 24, 2003. She agreed with the report.

We appreciate the cooperation and assistance of DOT and KPMG LLP representatives.
If we can answer any questions, please call me at (202) 366-1959, or John Meche at
(202) 366-1496.

                                          -#-
                                        TABLE OF CONTENTS


TRANSMITTAL MEMORANDUM

SECTION          I:        INDEPENDENT AUDIT REPORT
                           ON THE DEPARTMENT OF TRANSPORTATION
                           CONSOLIDATED FINANCIAL STATEMENTS
                           FOR FISCAL YEARS 2002 AND 2001 ................................ I-1


A.      Unqualified Opinion on Financial Statements ................................................ I-2

B.      Consideration of Internal Controls ................................................................. I-2

C.      Compliance with Laws and Regulations......................................................... I-6

D.      Consistency of Other Information................................................................... I-12

E.      Prior Audit Coverage ...................................................................................... I-12

EXHIBIT A: Objectives, Scope, and Methodology.................................................. I-13

EXHIBIT B: Financial-Related Reports ................................................................... I-15

SECTION          II:       FINANCIAL STATEMENTS

        Consolidated Balance Sheet ............................................................................ II-1

        Consolidated Statement of Net Cost ............................................................... II-2

        Consolidated Statement of Changes in Net Position....................................... II-3

        Combined Statement of Budgetary Resources................................................ II-4

        Consolidated Statement of Financing ............................................................. II-6

        Notes to the Financial Statements ................................................................... II-8
                DEPARTMENT OF TRANSPORTATION
         INSPECTOR GENERAL'S INDEPENDENT AUDIT REPORT
             ON THE DEPARTMENT OF TRANSPORTATION
              CONSOLIDATED FINANCIAL STATEMENTS
                  FOR FISCAL YEARS 2002 AND 2001


To the Secretary

The Department of Transportation (DOT), Office of Inspector General (OIG), audited
the DOT Consolidated Financial Statements and accompanying notes as of, and for the
years ended, September 30, 2002, and September 30, 2001. In our audit of the DOT
Consolidated Financial Statements for Fiscal Years (FY) 2002 and 2001, we found:

   • the financial statements are fairly presented, in all material respects, in
     conformity with U.S. generally accepted accounting principles;

   • five material internal control weaknesses concerning DOT's financial,
     accounting, and information security programs; and reportable conditions
     concerning property, liabilities, obligations, and performance measures;

   • noncompliance with the Federal Financial Management Improvement Act of
     1996 (FFMIA) regarding: (1) DOT's accounting system, (2) financial system
     interfaces, (3) computer security over financial information systems,
     (4) managerial cost accounting standards, and (5) overobligation of funds;

   • financial information in the Management Discussion and Analysis was
     materially consistent with the financial statements, except 14 of 64 performance
     measures were based on FY 2001 rather than FY 2002 performance data; and

   • supplementary and stewardship information was consistent with management
     representations and the financial statements.

We performed our work in accordance with U.S. generally accepted government
auditing standards and Office of Management and Budget (OMB) Bulletin 01-02, Audit
Requirements for Federal Financial Statements. The following sections discuss these
conclusions. Our audit objectives, scope, and methodology are discussed in Exhibit A.
We believe that our audit provides a reasonable basis for our opinion.




                                         I-1
A.    UNQUALIFIED OPINION ON FINANCIAL STATEMENTS

In our opinion, the DOT Consolidated Balance Sheet, Statement of Net Cost, Statement
of Changes in Net Position, and Statement of Financing, and the Combined Statement
of Budgetary Resources, including accompanying notes, present fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles, the DOT
assets, liabilities, and net position; net costs; changes in net position; budgetary
resources; and reconciliation of net costs to budgetary obligations as of
September 30, 2002, and September 30, 2001.

Under contract with OIG, KPMG LLP (KPMG) audited the financial statements of the
Federal Aviation Administration (FAA) and Transportation Security Administration
(TSA) as of and for the period ended September 30, 2002. KPMG rendered
unqualified opinions on the FAA and TSA financial statements.

B.    CONSIDERATION OF INTERNAL CONTROLS

In planning and performing our audit, we considered DOT's internal controls over
financial reporting and compliance with laws and regulations. We do not express an
opinion on internal controls and compliance because the purpose of our work was to
determine our procedures for auditing the financial statements and to comply with
OMB Bulletin 01-02 audit guidance, not to express an opinion on internal controls.

For the controls we tested, we found five material weaknesses. A material weakness is
a condition in which the design or operation of one or more of the internal control
components does not reduce, to a relatively low level, the risk that errors, fraud, or
noncompliance that would be material to the financial statements, may occur and not be
detected promptly by employees in the normal course of performing their duties. Our
internal control work would not necessarily disclose all material weaknesses or
reportable conditions.

Our work also identified the need to improve internal controls over financial reporting
and compliance in four other areas. These reportable weaknesses in internal controls,
although not considered material weaknesses, represent significant deficiencies in the
design and operation of internal controls, which could adversely affect the DOT
Consolidated Financial Statements.

Material Weaknesses

The following sections describe the material weaknesses that we identified. On
December 26, 2002, as required by the Federal Managers' Financial Integrity Act of
1982, the Secretary of Transportation reported four of the five material weaknesses to



                                          I-2
the President and Congress. The other material weakness concerning TSA financial
management was identified after the 2002 report was issued.

Federal Transit Administration (FTA) Financial Management

Last year, we reported that a headquarters account created by former FTA employees
existed to hold obligations which were adjusted using inappropriate accounting
procedures. This account had a negative $77 million obligation balance as of
September 30, 2001. While addressing this issue during FY 2002, FTA discovered that
this account contained the remaining balance of what at one time was a $562 million
overobligation that had occurred 19 years earlier.

Rather than report the Antideficiency Act violation in FY 1984, former FTA employees
engaged in inappropriate actions, such as (1) using funds from other appropriations,
some of which had expired for obligation purposes, (2) maintaining records outside the
accounting system, and (3) manipulating financial information on reports to OMB and
Treasury to prevent detection. After a thorough review of its financial records, FTA
found that the remaining balance of the FY 1984 overobligation was about $29 million
as of September 30, 2002. This labor-intensive effort identified a material internal
control weakness involving many areas of FTA financial practices as the following
examples indicate.

   • Adjustments totaling about $8 billion were needed to correct the FY 2002
     Consolidated Financial Statements.

   • Interface deficiencies between the new DOT accounting system (Delphi) and
     FTA's financial feeder systems (TEAM and ECHO) prevented FTA from
     electronically processing transactions. For example, about $350 million in
     ECHO payments had to be manually processed into Delphi.

   • In June 2002, when FTA implemented Delphi, significant obligation and
     expense transactions were not electronically transferred to Delphi. For example,
     when FTA manually processed transactions, about $64 million in valid
     obligations were not entered into Delphi.

FTA corrected its financial records and provided accurate amounts for the financial
statements. In a separate report, we recommended that FTA report a violation of the
Antideficiency Act that occurred in FY 1984 and ensure that new policies and
procedures are implemented. FTA is in the process of reporting the Antideficiency Act
violation to OMB and Congress and implementing new internal control policies and
procedures.




                                         I-3
DOT Information Security Program

In September 2002, we issued our second annual report on DOT's Information Security
Program as required by the Government Information Security Reform Act. We found
that DOT's Chief Information Officer lacked authority to enforce DOT security
guidance and weaknesses existed in management controls, network security, system
security, infrastructure-critical systems and asset protection, and E-government and
personnel security.

Specifically, we found unsecured network connections to contractors and unauthorized
telephone line (dial-up) computer connections; no system security certification and
accreditation reviews on 78 percent (438 out of 561) of mission-critical systems,
including 15 of the 25 major financial systems; 79 high vulnerabilities on DOT's web
sites; and no background checks on 24 percent of the contractor personnel we
reviewed. Unauthorized access to any DOT information system could jeopardize the
integrity of financial information systems. We made recommendations in separate
reports to improve computer security and controls.

FAA Oversight of Cost-Reimbursable Contracts

FAA's oversight of its cost-reimbursable contracts, as required by acquisition
regulations, was deficient, lacked accountability, and did not adequately protect FAA
from fraud, waste, and abuse. This vulnerability was significant because FAA awarded
about 800 cost-reimbursable contracts totaling $3.4 billion in FY 2001. For example,
we found that cost-reimbursable contracts totaling $2 billion did not have the required
incurred-cost audits, and about 1,400 contracts totaling $6 billion were not closed
timely. In a separate report, we recommended that FAA ensure contract audits are
obtained and establish better policies and procedures to enhance oversight of its
contract management functions.

TSA Security Screening Contracts

In February 2002, TSA assumed responsibility for passenger security screening at the
Nation's airports. To do this, TSA contracted at an estimated cost of $1 billion with 74
private companies that already were on site providing passenger security screening
services for air carriers. Of the 74 contractors, 13 accounted for about 93 percent of the
total passenger screening costs. Although contract rates for TSA were to be based on
actual costs incurred providing screening services for air carriers, we found that 6 of
the 13 contractors increased billing rates from 58 to 97 percent above those charged to
air carriers and TSA initially was performing virtually no monitoring of these contracts.
We made recommendations for corrective action in a July 2002 memorandum and in a
separate report to be issued in February 2003. TSA has hired independent contractors
to audit, administer, and monitor these contracts.


                                           I-4
TSA Financial Management

On November 19, 2001, the President signed the Aviation and Transportation Security
Act that created TSA. From the first day of its existence, DOT and TSA were faced
with many significant challenges and short statutory milestones. Getting organized and
building a financial management organization with only a few Federal employees was
very challenging for TSA.

Under contract with OIG, KPMG found that TSA did not have sufficient personnel or
established policies and procedures to ensure accurate reporting of amounts on its
financial statements concerning (1) expenses and liabilities of about $1 billion; (2)
purchase orders and other obligations of $322 million; (3) equipment purchases of
$309 million; and (4) accounts receivable from air carriers and passenger fees of
$157 million. TSA corrected its accounting records and reported appropriate amounts
on its financial statements. KPMG made recommendations in a separate report to
improve TSA financial management.

Reportable Conditions

Internal control weaknesses existed because of (1) the lack of an integrated property
and accounting system in FAA; (2) inadequate coordination concerning reporting
procedures for FAA legal liabilities; (3) computer security weaknesses in Delphi; and
(4) an interface deficiency between FHWA's grants management system and DOT's
existing accounting system, DAFIS.

FAA Property, Plant, and Equipment

Last year, we reported significant deficiencies in accounting for FAA property, plant,
and equipment. Under contract with OIG, KPMG audited the FY 2002 FAA financial
statements and reported that FAA did not adhere to established policies and procedures
to ensure its property accounts were properly reported. In a separate report, KPMG
made recommendations to improve property accounting; reconcile the property system
and DAFIS throughout the year, record property additions and disposals, and capitalize
labor and travel costs. FAA still needs to integrate its property accounting system with
Delphi. FAA plans to integrate the two systems by October 2003.

FAA Legal Liabilities

FAA overstated its legal liabilities by about $514 million. This occurred because the
FAA Chief Counsel, when preparing the estimate, incorrectly included cases deemed to
be reasonably possible of loss with those deemed to be probable of loss. FAA also
incorrectly included cases where the likelihood of loss was deemed to be remote.



                                          I-5
KPMG made recommendations in a separate report to improve communication and
coordination within FAA.

Delphi Computer System Controls

Our ongoing review of Delphi1 identified that the system security functions need to
ensure access to Delphi only by authorized personnel. We found that Delphi lacked
basic system controls, such as (1) passwords not properly configured to prevent
guessing; (2) no systematic way to identify and remove user accounts for terminated
employees; and (3) programmers given access to production systems. Using a
commercial scanning tool, we also identified nine high vulnerabilities in Delphi's
security system. Access to the Delphi computer room also was not adequately secured.
These deficiencies occurred partially because Delphi operates on a stand-alone server,
and security responsibilities that are normally provided by a central security function,
as was provided for DAFIS, must now be performed by Delphi managers.

DOT also needs a better plan for Delphi to continue operations in case of system failure
or catastrophic events such as tornadoes. We will make specific recommendations in a
separate report to be issued later. DOT agreed with our findings and corrective actions
already are underway.

FHWA’s Grants Management System

Last year, we identified an electronic interface deficiency between FHWA's Fiscal
Management Information System (FMIS) and DAFIS, and recommended corrective
action. FMIS records initial obligations for Federal-aid grants to states. However,
when FMIS interfaces with DAFIS, all obligations are not electronically transferred
into DAFIS. This occurs due to problems resulting from upgrades and changes that
were made to the FMIS system. FHWA also did not reconcile obligated balances
between FMIS and DAFIS. As of September 30, 2002, valid obligations of about
$388 million were understated. FHWA plans to resolve this interface deficiency during
the Delphi implementation process.

C.       COMPLIANCE WITH LAWS AND REGULATIONS

Our objective was not to express, and we do not express, an opinion on compliance
with laws and regulations. Our work was limited to selected provisions of laws and
regulations that would be reportable under U.S. generally accepted government
auditing standards or under OMB guidance. Our work disclosed the following
instances of noncompliance with FFMIA and other laws and regulations.


1
 For security reasons, specifics concerning the weaknesses and vulnerabilities we identified and our audit procedures are not
discussed in this report, but were provided to DOT managers during the audit.


                                                            I-6
Federal Financial Management Improvement Act of 1996

Under FFMIA, we are required to report whether or not DOT financial management
systems substantially comply with: (1) Federal financial management system
requirements, (2) applicable Federal accounting standards, and (3) the U.S.
Government standard general ledger at the transaction level. On January 4, 2001,
OMB issued Revised Implementation Guidance for the Federal Financial Management
Improvement Act, including factors for determining compliance and auditor reporting
responsibilities. To meet the FFMIA audit requirement, we performed tests of
compliance with the three FFMIA section 803(a) requirements and the revised OMB
guidance, including financial management systems; the standard general ledger; and
accounting standards.

DOT did not meet FFMIA requirements for financial management systems because:
(1) DOT's accounting system, DAFIS, cannot produce auditable financial statements;
(2) interface deficiencies exist between DAFIS and FMIS and between Delphi and
FTA's financial feeder systems; (3) DAFIS does not contain all of the U.S. Government
standard general ledger accounts; (4) DOT has not implemented managerial cost
accounting standards; and (5) five material weaknesses existed concerning DOT's
financial, accounting, and information security programs.

Financial Management System Requirements

DOT's major agencies use DAFIS, which cannot produce financial statements based on
the information included within the system. For example, DOT made about 860
adjustments, totaling $51 billion, outside DAFIS to prepare the financial statements.
These adjustments were recorded in a financial statement module, a tool used to
process the adjustments. However, all DOT agencies did not use the financial
statement module to prepare the financial statements and adjustments were not
recorded in DAFIS. For example, the Coast Guard and Maritime Administration
(MARAD) did not use the financial statement module.

Ten of DOT's agencies use the new accounting system, Delphi. Although Delphi is
being used, the system is under development and does not yet fully meet all FFMIA
requirements for financial management systems. For example, none of the 10 DOT
agencies on Delphi used the full capabilities in Delphi to prepare their FY 2002
financial statements. Delphi is being evaluated as to compliance with FFMIA as part
of its implementation. As discussed in Section B, the Delphi computer system contains
vulnerabilities and security control weaknesses. DOT plans to have all agencies on
Delphi by October 2003.

Interface deficiencies exist between DAFIS and FMIS, and between Delphi and FTA's
financial feeder systems. The Joint Financial Management Improvement Program


                                         I-7
(JFMIP) Core Financial System Requirements and Grant Financial System
Requirements and OMB guidance require that, to be compliant with FFMIA, integrated
financial management systems must maintain data accuracy between the core financial
system and feeder systems. As discussed in Section B, an interface deficiency between
DAFIS and FMIS resulted in recorded obligations in DAFIS being understated by
$388 million. Interface deficiencies between Delphi and FTA's financial feeder
systems prevented FTA from electronically processing transactions. DOT plans to
resolve these deficiencies during the Delphi implementation process.

United States Government Standard General Ledger

DAFIS does not comply with the U.S. Government standard general ledger (SGL) at
the transaction level because it does not contain all of the SGL accounts. As a result,
about 860 adjustments, totaling $51 billion, were made outside DAFIS to prepare the
financial statements. Delphi is compliant with the SGL, and DOT plans to have Delphi
fully operational in all agencies by October 2003.

Federal Cost Accounting Standards

DOT agencies, except FAA and Coast Guard, are just beginning to identify planning
requirements for implementation of cost accounting systems. The Statement of Federal
Financial Accounting Standards (SFFAS) Number 4, Managerial Cost Accounting
Standards, requires that beginning in FY 1998, each reporting entity should provide
reliable and regular reporting of full costs of their activities and outputs. DAFIS does
not have the capability to capture full costs, including direct and indirect costs assigned
to DOT programs. DOT's goal is to be compliant with cost accounting standards by
September 2004.

During FY 2002, DOT demonstrated its commitment to implementing cost accounting
standards by appointing a full-time cost accounting project manager and forming a
steering group with representatives from each DOT agency to coordinate the
Departmentwide implementation of cost accounting standards. These are positive
steps, but extensive efforts will be needed to complete implementation by
September 2004.

FAA made progress by implementing its cost accounting system in its Air Traffic
Services and Commercial Space Transportation lines of business. FAA also is working
on developing a labor distribution system. However, FAA still needs to improve the
system and develop the cost accounting system for its other three lines of business.
FAA plans to complete its cost accounting system implementation by September 2003.

As discussed in Section B, material weaknesses exist concerning (1) FTA financial
management; (2) computer security; (3) FAA oversight of cost-reimbursable contracts;
(4) TSA security screener contracts; and (5) TSA financial management.

                                           I-8
On December 26, 2002, as required by the Federal Managers' Financial Integrity Act of
1982, the Secretary of Transportation reported four of the five material weaknesses in
DOT's 2002 report, and also reported that DOT was taking remedial and progressive
actions in these areas that will bring DOT into substantial compliance with FFMIA
when its actions are successfully implemented. The other material weakness
concerning TSA financial management was identified after the 2002 report was issued.

Antideficiency Act Violations

Title 31, United States Code, Section 1341(a) provides that an officer or employee of
the U.S. Government may not make or authorize an expenditure or obligation
exceeding an amount available in an appropriation. As discussed in Section B, a
$562 million overobligation occurred in FY 1984, and FTA still needs about
$29 million to pay the remaining overobligation balance.

DOT also spent about $37 million obtained from Treasury miscellaneous receipts
accounts between FYs 1998 and 2001, rather than using appropriated funds. DOT had
no authority to spend Treasury's money. When the transactions were corrected during
FY 2002, FHWA and Office of the Secretary prior year appropriations were
overobligated by about $5 million. We made recommendations in a separate report.
DOT is in the process of reporting both Antideficiency Act violations.

Intragovernmental Balances

OMB Bulletin 01-09, Form and Content of Agency Financial Statements, requires that
reporting entities reconcile intragovernmental asset, liability, and revenue amounts by
confirming balances with their trading partners. Some DOT agencies only partially
confirmed or reconciled their intragovernmental balances, but most did not. However,
our testing found no material differences. Notwithstanding, DOT intragovernmental
asset, liability, and revenue amounts of about $1.9 billion were not confirmed or
reconciled with trading partners.

Confirming and reconciling these balances is important to the Financial Report of the
United States Government. Last year, GAO reported that one impediment to an
opinion on the Government Consolidated Financial Statements that must be overcome
is the Government's inability to account for billions of dollars of transactions among
Federal entities. GAO attributed part of this problem to agencies not reconciling
balances with their trading partners. The unreconciled difference among Federal
entities for FY 2001 was about $21 billion.

Recommendation. We recommend that the DOT Chief Financial Officer establish a
special reporting procedure to verify that DOT agencies confirm and reconcile
intragovernmental balances with trading partners.


                                          I-9
Performance Data

Under OMB Bulletin 01-02, our responsibility is to obtain an understanding of internal
controls relating to existence and completeness of performance data. DOT agencies are
responsible for establishing and maintaining adequate internal controls. The FY 2002
DOT Performance and Accountability Report contains 39 primary and 25
supplementary performance measures which were in the FY 2002 DOT Consolidated
Financial Statements. The overall presentation complied with requirements of OMB
Bulletin 01-09 to report performance measures consistent with goals and objectives
from agencies' strategic and performance plans.

Linking to Statement of Net Cost and Measuring Cost-Effectiveness

According to OMB Bulletin 01-09:

       Entities should strive to develop and report objective measures that . . .
       provide information about the efficiency and cost effectiveness of
       programs. The discussion of performance . . . should be clearly linked to
       cost categories . . . featured in the Statement of Net Cost. . . . To further
       enhance the usefulness of the information, agencies should include an
       explanation of what needs to be done and what is planned . . . to improve
       financial or program performance.

DOT does not have systems in place to allocate costs by major program and the
performance measures presented in the financial statements did not provide information
about cost-effectiveness. Consequently, none of the performance measures was linked
to the cost of achieving targeted results or to the Statement of Net Cost.

DAFIS does not have the capability to accurately identify program costs. DOT is in the
process of replacing DAFIS, and plans to have Delphi in full operation by
October 2003. FAA also is developing a separate cost accounting system, which FAA
expects will be fully operational by September 30, 2003.

Assessing Internal Controls

We performed various procedures to assess internal controls relating to performance
data. While our work disclosed no material internal control weaknesses, we were not
required to, and we did not, test the validity or accuracy of performance data as part of
the DOT Consolidated Financial Statement audit. However, DOT is facing a
significant challenge to ensure the incoming data are accurate and complete.

DOT relies on third-party organizations outside the Federal Government, such as states;
grantees; transit authorities; commercial airlines; and airports, for some of its


                                          I-10
performance data. States, for example, report on a calendar-year basis, and DOT did
not receive some FY 2002 performance information in time to incorporate it into the
DOT Consolidated Financial Statements. Of the 64 performance measures, 14 were
based on FY 2001 rather than FY 2002 performance data.

Reporting of Planned Actions

To enhance the usefulness of performance information, OMB Bulletin 01-09
encourages entities to include an explanation of what is planned to improve financial or
program performance. The Management Discussion and Analysis overview includes
general comments on how to improve performance; however, specific plans to improve
financial performance were not included.

Statement of Net Cost Presentation

According to the Cost Accounting Implementation Guide issued by JFMIP, the
Statement of Net Cost is pertinent to reporting performance results, and provides
financial information that can be related to outputs and outcomes of an entity's major
programs and activities. OMB Bulletin 01-09 requires an entity to report performance
measures that can be clearly linked to cost categories in the Statement of Net Cost.

In September 2002, DOT issued guidance for preparing the FY 2002 DOT
Consolidated Financial Statements that established the major program areas on the
DOT Consolidated Statement of Net Cost would be Surface, Air, Maritime, and
Cross-Cutting Transportation Programs. This presentation inappropriately combines
DOT agencies and programs with separate and distinct goals.

For example, the Maritime Transportation category combined separate and distinct
programs in Coast Guard and MARAD, such as the cost for maintaining MARAD's
Ready Reserve Fleet were combined with Coast Guard’s Search and Rescue, Drug
Interdiction, and Recreational Boating Safety. Under Maritime Transportation Costs,
DOT reported Coast Guard operating expenses of $3.8 billion as a major program cost.
However, these costs represented total operating and maintenance costs that should
have been allocated among Coast Guard programs.

To improve financial management, DOT has initiated a project to replace DAFIS.
Delphi is being designed to produce financial statements, as well as cost accounting
information. Delphi is scheduled to be fully operational by October 2003.




                                         I-11
D.    CONSISTENCY OF OTHER INFORMATION

Management's Discussion and Analysis, required supplementary information
(including stewardship information), and other accompanying information contain a
wide range of data, some of which are not directly related to the financial statements.
We are not required to, and we do not, express an opinion on this information. We
compared this information for consistency with the DOT Consolidated Financial
Statements and discussed the methods of measurement and presentation with DOT
officials. Based on this work, except for FY 2002 performance measures that were
based on FY 2001 performance data (Part C of this report), we found no material
inconsistencies with the DOT Consolidated Financial Statements nor nonconformance
with OMB guidance.

E.    PRIOR AUDIT COVERAGE

Our report on the DOT Consolidated Financial Statements for FYs 2001 and 2000
expressed an unqualified opinion and made one recommendation that FTA discontinue
use of the headquarters account and eliminate the negative obligation balance before
transferring to Delphi. As discussed in Section B, FTA took corrective actions. In
March 1998, we also recommended that DOT ensure DAFIS, or its replacement, is the
primary source of information for preparing financial statements. This item remains
open until Delphi is fully implemented and demonstrates it can provide the information
needed to prepare the DOT Consolidated Financial Statements.

Since we issued our report on the DOT Consolidated Financial Statements for
FYs 2001 and 2000, a total of 10 reports were issued related to the DOT Consolidated
Financial Statements. The list of reports is in Exhibit B.

This report is intended for information and use by DOT, OMB, GAO, and Congress.
This report is a matter of public record, and its distribution is not limited.



Kenneth M. Mead
Inspector General




                                         I-12
EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our audit objectives for the DOT Consolidated Financial Statements for FYs 2002
and 2001 were to determine whether: (1) principal DOT Consolidated Financial
Statements and accompanying notes are presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles; (2) DOT has adequate
internal controls over financial reporting, including safeguarding assets; (3) DOT has
complied with laws and regulations that could have a direct and material effect on the
DOT Consolidated Financial Statements or that have been specified by OMB,
including FFMIA; (4) financial information in the Management Discussion and
Analysis is materially consistent with the information in the principal DOT
Consolidated Financial Statements; (5) internal controls ensured the existence and
completeness of reported data supporting performance measures; and
(6) supplementary and stewardship information is consistent with management
representations and the DOT Consolidated Financial Statements.

DOT is responsible for (1) preparing the DOT Consolidated Financial Statements for
FYs 2002 and 2001 in conformity with U.S. generally accepted accounting principles;
(2) establishing, maintaining, and assessing internal controls to provide reasonable
assurance that broad control objectives of the Federal Managers' Financial Integrity Act
are met; (3) ensuring that DOT financial management systems substantially comply
with FFMIA requirements; and (4) complying with applicable laws and regulations.

OIG is responsible for obtaining reasonable assurance about whether (1) the DOT
Consolidated Financial Statements for FYs 2002 and 2001 are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles and
(2) management maintained effective internal controls. The objectives of these
controls are:

• Financial reporting: Transactions are properly recorded, processed, and summarized
  to permit the preparation of financial statements and stewardship information in
  conformity with U.S. generally accepted accounting principles, and assets are
  safeguarded against loss from unauthorized acquisition, use, or disposition.

• Compliance with laws and regulations: Transactions are executed in accordance
  with laws governing the use of budget authority and with other laws and regulations
  that could have a direct and material effect on the financial statements and any other
  laws, regulations, and Governmentwide policies identified by OMB audit guidance.

OIG also is responsible for (1) obtaining sufficient understanding of internal controls
over financial reporting and compliance to plan the audit, (2) testing compliance with
selected provisions of laws and regulations that have a direct and material effect on the
financial statements and laws for which OMB audit guidance requires testing, and

                                          I-13
(3) performing limited procedures with respect to certain other information appearing
in the DOT Consolidated Financial Statements for FYs 2002 and 2001.

To fulfill these responsibilities, we examined the amounts and disclosures in the
financial statements; assessed accounting principles and estimates; evaluated internal
controls; observed physical inventories; and evaluated the presentation of the financial
statements. We reviewed the work of KPMG on the FAA and TSA financial
statements to determine whether the work was performed in accordance with
U.S. generally accepted government auditing standards. We also examined the validity
of financial transactions and interviewed financial management officials.

We did not evaluate all internal controls relevant to operating objectives as broadly
defined by the Federal Managers' Financial Integrity Act, such as those controls
relevant to preparing statistical reports and ensuring efficient operations. We limited
our internal control testing to controls over financial reporting and compliance.
Because of inherent limitations in internal controls, misstatements due to error or fraud,
losses or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our evaluation to future periods is subject to the risk that controls may
become inadequate because of changes in conditions or that the degree of compliance
with controls may deteriorate.

We did not test compliance with all laws and regulations applicable to DOT. We
limited our tests of compliance to those laws and regulations required by OMB audit
guidance that we deemed applicable to the DOT Consolidated Financial Statements for
FY 2002 ended September 30, 2002, and FY 2001 ended September 30, 2001. We
caution that noncompliance may occur and not be detected by these tests and that such
testing may not be sufficient for other purposes. We also caution that our internal
control testing may not be sufficient for other purposes.

We performed our work in accordance with U.S. generally accepted government
auditing standards and OMB Bulletin 01-02, Audit Requirements for Federal Financial
Statements.




                                          I-14
EXHIBIT B. FINANCIAL-RELATED REPORTS

                  TITLE                          REPORT NUMBER     DATE ISSUED

Quality Control Review of Fiscal Years 2002
 and 2001 Financial Statements, FAA`                 QC-2003-017   January 27, 2003

Quality Control Review of Fiscal Year 2002
 Financial Statements, TSA                           QC-2003-016   January 27, 2003

Financial Statements for Fiscal Years
 2002 and 2001, Highway Trust Fund                   FI-2003-015   January 24, 2003

Actuarial Estimates for Retired
 Pay and Medical Benefits, USCG                      FI-2003-014   January 22, 2003

Terminal Service Cost
 Accounting Practices, FAA                           FI-2003-013   January 21, 2003

Top Management Challenges, DOT                       PT-2003-012   January 21, 2003

Information Security Program, DOT                    FI-2002-115   September 27, 2002

Vessel Documentation User Fees, USCG                 FI-2002-110   September 18, 2002

Spending Money from Treasury
 Miscellaneous Receipts Accounts, DOT                FI-2002-108   September 12, 2002

Oversight of Cost-Reimbursable
 Contracts, FAA                                      FI-2002-092   May 8, 2002




                                              I-15
